                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 112070047                                                                  Page 1 ofl




         We investigated the PI 1 of a small business2 that had received four SBIR awards 3 from NSF. We
         reviewed Time & Effort and financial documentation from the most recent Phase II award4 . Our
         investigation found no issues with expenditures under the award or variances from SBIR policy
         and regulations.

         Accordingly, this case is closed.




         2


         4




NSF OIG Form 2 (11102)
